         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report



       Federal Facilities in Chesapeake Bay
       Watershed Generally Comply with
       Major Clean Water Act Permits

       Report No. 2007-P-00032

       September 5, 2007
Report Contributors:	              Alicia Mariscal
                                   Jill Ferguson
                                   Ira Brass
                                   Dan Engelberg




Abbreviations

DoD           Department of Defense
EPA           U.S. Environmental Protection Agency
NOV           Notice of Violation
NPDES         National Pollutant Discharge Elimination System
OIG           Office of Inspector General
PCS           Permit Compliance System
SNC           Significant Noncompliance




Cover photo: The Naval Surface Warfare Center Indian Head is a Federal facility within the
             Chesapeake Bay watershed that operates under a major NPDES permit. The
             center is a tenant of the Naval Support Facility Indian Head. The Indian Head
             facility is on a peninsula surrounded by the Potomac River and the Mattawoman
             Creek in Charles County, Maryland, about 20 miles south of Washington, DC.
             (Photo from Naval Support Facility Indian Head Website).
                       U.S. Environmental Protection Agency                                              2007-P-00032

                       Office of Inspector General                                                   September 5, 2007





                       At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review                Federal Facilities in Chesapeake Bay Watershed
Much effort is being expended to      Generally Comply with Major Clean Water Act Permits
clean up impaired waters in the
Chesapeake Bay watershed. We          What We Found
looked at whether Federal
facilities in the watershed were      Overall, EPA and the States are doing well managing how major Federal
in compliance with Clean Water        facilities comply with their NPDES permits. In EPA’s last reporting period
Act permitted levels, what tools      (2004), major Federal facilities in the Chesapeake Bay watershed had a lower
were available for the U.S.           rate of Significant Noncompliance than other Federal and non-Federal major-
Environmental Protection              permit facilities nationwide.
Agency (EPA) to identify permit
noncompliance and enforce             EPA and States have a variety of formal and informal tools available to enforce
compliance, and whether EPA’s         Federal facility compliance with NPDES permits. They employed several of
actions were improving                these tools with major Federal facilities. These tools included:
compliance at Federal facilities.
                                          •   Multimedia, voluntary agreement, and media press release approaches
Background
                                          •   Notices of Violation
One hundred Federal facilities            •   An administrative order
discharge into the Chesapeake             •   A Federal Facility Compliance Agreement
Bay or its tributaries. Nine of
those facilities operate under        Also, EPA developed the Wastewater Integrated Strategy, which seeks to
major National Pollutant              eliminate Federal facility Significant Noncompliance with NPDES permit limits.
Discharge Elimination System          EPA also worked with the Department of Defense to make NPDES permit
(NPDES) permits. The Clean            compliance a higher priority at military installations (eight of the nine Federal
Water Act provides that any           facilities with major NPDES permits are at military installations). Due to our
discharges into U.S. waters must      small sample size, we did not determine the tools’ relative effectiveness in
be permitted by EPA or a State.       bringing about and maintaining compliance.
The NPDES program assigns
discharge amounts to all              We make no recommendations in this report. Both Region 3 and the Chesapeake
facilities, including Federal ones.   Bay Program Office declined to provide formal responses to the draft report.
EPA and States regulate
compliance with permitted levels
and take enforcement actions
when necessary.

For further information,
contact our Office of
Congressional and Public Liaison
at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070905-2007-P-00032.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                        September 5, 2007

MEMORANDUM

SUBJECT:               Federal Facilities in Chesapeake Bay Watershed
                       Generally Comply with Major Clean Water Act Permits
                       Report No. 2007-P-00032


FROM:                  Wade T. Najjum
                       Assistant Inspector General, Office of Program Evaluation

TO:                    Donald S. Welsh
                       Regional Administrator, Region 3

                       Jeffrey L. Lape
                       Director, Chesapeake Bay Program Office


This is our report on Chesapeake Bay Federal facilities’ compliance with the Clean Water Act
evaluation conducted by the Office of Inspector General (OIG) of the U.S. Environmental
Protection Agency (EPA). This report describes our findings about how the Agency is managing
Federal facility compliance with their National Pollutant Discharge Elimination System
(NPDES) permits and the tools available to the EPA and States to enforce compliance. We make
no recommendations in this report. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $184,914.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827
or Najjum.Wade@epa.gov; Dan Engelberg, Director of Program Evaluation, at 202-566-0830 or
Engelberg.Dan@epa.gov; or Ira Brass, Project Manager, at 212-637-3057 or Brass.Ira@epa.gov.
                                  Federal Facilities in Chesapeake Bay Watershed 

                                Generally Comply with Major Clean Water Act Permits 





                                         Table of Contents 

Purpose ...................................................................................................................................   1     


Background ..........................................................................................................................          1


             Federal Facilities in Chesapeake Bay Watershed......................................................                             2     

             EPA and State Roles and Responsibilities for Federal Facility Oversight..................                                        2     


Noteworthy Achievements.....................................................................................................                  3     


Scope and Methodology ........................................................................................................                3     


Results of Evaluation .............................................................................................................           4


             EPA and States Address Major Federal Facility Noncompliance...............................                                       4     

             EPA and States Use a Variety of Enforcement Tools to Address Noncompliance ....                                                  5     


Agency Response...................................................................................................................             6    


Status of Recommendations and Potential Monetary Benefits..........................................                                           7     




Appendices
     A       Federal Facility Significant Noncompliance by Quarter....................................                                        8


     B       Pertinent Prior Reviews ........................................................................................                 9             


     C       Distribution ............................................................................................................        10        

Purpose
Federal facilities have a responsibility to comply with Federal environmental laws such as the
Clean Water Act. At the request of the Office of Management and Budget, we reviewed Federal
facilities in the Chesapeake Bay watershed and their compliance with National Pollutant
Discharge Elimination System (NPDES) permits under the Clean Water Act. We also reviewed
corresponding U.S. Environmental Protection Agency (EPA) and State enforcement actions and
their impact on the watershed. The following four questions guided our review:

    1.	 What is EPA’s role and responsibility for oversight of Federal facilities holding NPDES
        permits?

    2.	 To what extent are Federal facilities in the Chesapeake Bay watershed complying with
        NPDES permit levels?

    3.	 In the Chesapeake Bay watershed, what tools are available for EPA to identify NPDES
        permit noncompliance and enforce compliance at Federal facilities, and are they being
        utilized?

    4.	 Are EPA’s actions improving NPDES compliance at Federal facilities in the Chesapeake
        Bay?

The first question is addressed in the Background section of this report; the remaining questions
are addressed in the Results of Evaluation section.

Background
The Chesapeake Bay is North America’s largest and most biologically diverse estuary. It is
home to more than 16 million people and 3,600 species of plants, fish, and animals. The Bay’s
watershed, the geographic area that drains water to the Bay, covers 64,000 square miles. The
watershed includes parts of six States – Delaware, Maryland, New York, Pennsylvania, Virginia,
and West Virginia – as well as all of the District of Columbia.

Over time, the Bay and its tributaries have suffered from excess nutrients and sediment,
impairing water quality and affecting aquatic life. Formal efforts to restore the health of the Bay
have been ongoing since 1983, when the Chesapeake Bay Program was formed to lead and direct
restoration of the Bay. The program is a regional partnership of State and Federal agencies,
academic institutions, and non-governmental organizations. Bay program partners include EPA,
Maryland, Pennsylvania, Virginia, the District of Columbia, and the Chesapeake Bay
Commission (a tri-State legislative advisory body). Delaware, New York, and West Virginia are
also actively involved in the Bay program but are not signatories to the 2000 agreement for
cleaning up the Bay.1 EPA and its Chesapeake Bay Program Office, which is part of EPA’s
Region 3, coordinate Bay restoration activities and implementation of strategies.
1
 Chesapeake 2000 is the latest agreement whereby the Chesapeake Bay Program partners recommitted to their
overall mission of Bay restoration, and established the goal of improving water quality in the Bay and its tributaries
so that these waters may be removed from EPA’s impaired waters list by 2010.


                                                          1

Improving water quality in the Chesapeake Bay is dependent, in part, on reducing pollution from
point sources. To decrease pollutants entering the waters of the Chesapeake Bay, EPA, under the
Clean Water Act, requires all point source dischargers to abide by an NPDES permit.

Federal Facilities in Chesapeake Bay Watershed

According to EPA, 100 Federal facilities in the watershed discharge into the Chesapeake Bay or
a tributary of the Bay. The EPA Permit Compliance System (PCS) database tracks EPA regional
and State compliance and enforcement data for the NPDES program under the Clean Water Act.
According to PCS, 11 major permits are issued to 9 Federal facilities in the Chesapeake Bay
Watershed under the NPDES program.2 Facilities with major permits are those that discharge
more than 1 million gallons per day. These major facilities are located in Maryland,
Pennsylvania, Virginia, and the District of Columbia (see Appendix A).

Eight of the nine major-permit holders are Department of Defense (DoD) installations. The
other major-permit facility, which supplies drinking water for the District of Columbia and
northern Virginia, is operated by the U.S. Army Corps of Engineers. The 91 other Federal
facilities are considered minor permit facilities under the NPDES permit classification system.

EPA and State Roles and Responsibilities for Federal Facility Oversight

For the most part, EPA and State roles and responsibilities for Federal facility oversight are the
same as for non-Federal facilities. Agency and State staff may work with those from EPA
Region 3’s Office of Enforcement, Compliance, and Environmental Justice during inspections.
However, Agency staff members are located in separate offices and usually are not involved in
Federal facility oversight or enforcement. Unlike some other statutes, the Clean Water Act does
not grant EPA or States with authority to levy penalties against Federal facilities.

NPDES permits require NPDES-permitted facilities to self-report the contents and volume of
water discharged through discharge monitoring reports. These reports are sent to States, many in
paper format, and then uploaded by the State to an EPA data system. The system tracks both
major and minor permits. However, information on violations and enforcement are not required
for minor permits.

Title 40, Code of Federal Regulations, Section 123.45 requires EPA and States to report when
NPDES major dischargers are in noncompliance with their permit conditions. Reportable
Noncompliance can include a violation of effluent limits in NPDES permits, violations of
enforcement orders or schedules for compliance with permit conditions, failure to provide
compliance schedule reports, unauthorized bypasses or discharges, and failure to submit
discharge monitoring reports on time.



2
  PCS lists the City of Aberdeen facility as a Federal facility, and we originally included it in this list of major
facilities. We learned that the City of Aberdeen has operated this facility during the time period reviewed under this
evaluation. We verified that this facility is not a Federal facility by reviewing the facility’s last two active permit
documents. EPA staff indicated they will remove the incorrect designation.


                                                           2

Significant Noncompliance (SNC) is a subset of Reportable Noncompliance. SNC involves
priority violations of NPDES permits that EPA believes merit special attention, including:

    •	 Violations of monthly and non-monthly effluent limits for two or more months during
       two consecutive quarterly review periods by (a) 20 percent for toxic pollutants, such as
       metals; and (b) 40 percent for conventional pollutants, such as total suspended solids.
    •	 Non-effluent violations, such as bypasses or unpermitted discharges, which cause or have
       the potential to cause a water quality problem, such as beach closings.
    •	 Permit compliance schedule violations.
    •	 Reporting violations, including failure to submit timely discharge monitoring reports
       (filing the report more than 30 days late or not at all).
    •	 Violations of existing enforcement orders, including judicial or administrative orders.

Federal facilities, like other NPDES permitted facilities, are subject to periodic inspections,
compliance reviews, and enforcement actions where applicable.3 According to EPA Region 3
staff, States conduct 90 percent of monitoring and compliance assurance at Federal facilities.
EPA performs civil enforcement when necessary, mainly when a State requests assistance.

Noteworthy Achievements
Chesapeake Bay Federal facilities had lower SNC rates in the 2004 reporting period than other
facilities nationwide. EPA works with Federal agencies to involve facilities in efforts to
improve, enhance, and recognize success in pollution reduction. These efforts include activities
such as: wetland restoration, forest stewardship, and leadership in storm water management. The
Businesses for the Bay Program is one example of how the EPA recognizes Federal partner
efforts. This program is comprised of a voluntary team of forward-looking businesses,
industries, government facilities, and other organizations within the watershed that strives for
voluntary implementation of pollution prevention practices. In addition, over the past 2 years,
EPA worked with DoD to make NPDES permit compliance a higher priority at military
installations. As a result, in January 2007, the DoD Office of the Under Secretary of Defense
issued a directive with a goal of zero SNCs at installations to encourage compliance with
permitted levels of discharge. DoD facilities must prepare and present a corrective action plan
when in SNC. DoD expects to meet or closely approach the zero SNC goal in the near future.

Scope and Methodology
We conducted our review from December 2006 to April 2007 in accordance with Government
Auditing Standards, issued by the Comptroller General of the United States. We focused on
compliance rates of the nine Federal facilities in the watershed with major NPDES permits (see
Appendix A). Major facilities account for a large share of the pollutants discharged. To evaluate
compliance, we used PCS data to look at quarterly rates of SNC during Fiscal Years 2000 to
2006 (October 1999 to September 2006). The EPA Office of the Inspector General (OIG) data


3
 According to EPA guidance, major-permit holders should be inspected annually; no recommended frequency
exists for minor permit holders.


                                                     3

mining staff pulled data directly from PCS. Where possible, we verified PCS facility data with
EPA Region 3, DoD management, and State and facility staff, as well as through applicable files.

To obtain an understanding of the Federal facility oversight process, we interviewed EPA staff
and managers from EPA Region 3’s Office of Enforcement, Compliance, and Environmental
Justice; Water Protection Division; and Chesapeake Bay Program Office. We also interviewed
Office of Enforcement and Compliance Assurance staff at EPA Headquarters. We identified
Federal facilities in the watershed through the use of designated Chesapeake Bay watershed
codes. To obtain information on the State roles and perspectives, we interviewed NPDES permit
enforcement staff from Maryland, Virginia, and Pennsylvania.

Working through DoD, we arranged site visits at two major facilities and spoke by phone with
personnel at a third. Each of the three facilities was located in a different Chesapeake Bay
signatory State. We also met with an EPA attorney regarding the U.S. Army Corps of
Engineers’ Washington Aqueduct facility. We contacted representatives from the National
Oceanic and Atmospheric Administration and non-governmental organizations to obtain
information and input.

We reviewed those internal controls relevant to our objectives. Our study was limited to the
small number of major-permit Federal facilities located in the Chesapeake Bay watershed.
We reviewed relevant prior reports issued by the EPA OIG and the U.S. Government
Accountability Office; they are listed in Appendix B.

Results of Evaluation

EPA and States Address Major Federal Facility Noncompliance

Based on our review of PCS data, EPA and States appear to be doing well in managing major-
permit Federal facility compliance with the Clean Water Act. In its last national report on
Federal facility compliance, covering Fiscal Years 2003-2004, EPA reported that NPDES
permitted Federal facilities, including the Chesapeake Bay facilities, had lower rates of SNC than
non-Federal facilities nationwide. In 2004, only one of the nine Chesapeake Bay Federal
facilities, or 11 percent, was in SNC. This compares to a national 2004 SNC rate (increasing
since 2001) of 22 percent for all NPDES-permitted Federal Government facilities and 20 percent
for non-Federal facilities. EPA and State enforcement representatives said there were no
significant compliance concerns at major Federal facilities in the Chesapeake Bay watershed.

Over our 7-year review period (Fiscal Years 2000-2006), four of the nine major Chesapeake Bay
NPDES permitted Federal facilities were in SNC at least once (see Appendix A). The
Washington Aqueduct was in SNC for 11 of the 28 quarters, while Naval Surface Warfare
Center Indian Head was in SNC for 5 quarters. The U.S. Marine Corps Base Quantico (which
had two permits) and Fort Indiantown Gap were each in SNC for 3 quarters. The reasons for
SNC at the four major facilities varied, as follows.

   •	 The Fort Indiantown Gap facility had upgraded water treatment processes to a level that
      would enable it to achieve permit limits for sediments, while the Washington Aqueduct


                                                4

       had not. The need to upgrade had been identified as new permit limits were issued for
       both facilities. However, neither facility had completed renovations before the new
       permit limits went into effect, resulting in SNC designations. Upgrades at the Fort
       Indiantown Gap facility are complete and the facility is meeting its permit conditions.
       SNC issues at the Washington Aqueduct facility will remain unresolved until the facility
       upgrades are complete (expected by December 2009).

   •	 U.S. Marine Corps Base Quantico was in SNC for effluent violations under permit
      VA0028363 for the quarters ending June and September 2002, and resolved both
      violations in December 2002. Under permit VA0002151, the facility was also in SNC for
      a chlorine maximum violation due to a potable waterline break for the quarter ending
      September 2006. Virginia considered the break to be an accident. In March 2007, after
      the facility had repaired the broken line, Virginia listed the SNC as resolved.

   •	 The Naval Surface Warfare Center Indian Head facility reported high levels of total
      suspended solids at one monitoring point from May 2005 to January 2006. Facility staff
      disagreed with the SNC designation, contending that a laboratory analyst failed to follow
      Standard Operating Procedures during testing. Though the SNC designation may be at
      issue, all open items have been concluded on this case except for a storm water pollution
      prevention plan, which EPA is awaiting.

EPA and State staff agreed that major-permitted Federal facilities are not large contributors to
the water quality impairments for the Chesapeake Bay; there are few of them and they generally
meet their permit limits. Data from EPA and States, as well as interviews with representatives
from other Federal agencies and environmental organizations, supported this assertion. Further,
NPDES permits for major-permit Chesapeake Bay Federal facilities are not for nutrients, which
are a primary cause of the water quality degradation and loss of aquatic life in the Bay.

EPA and States Use a Variety of Enforcement Tools to Address Noncompliance

EPA and States used a variety of formal and informal enforcement tools to bring Federal
facilities in SNC back into compliance. According to Region 3 and Chesapeake Bay Program
Office staff, the most effective tools have been the multimedia, voluntary agreement, and media
press release approaches. Another available tool for encouraging compliance is the EPA Federal
Facility Enforcement Office’s Wastewater Integrated Strategy. The strategy seeks to eliminate
Federal facility SNC with NPDES permit limits. This initiative included extensive outreach,
information gathering, and a compliance workshop attended by environmental managers from
DoD and Federal civilian facilities. This effort impressed upon the Federal facility community
the need to bolster its compliance with NPDES requirements.

For Federal facilities in SNC reviewed, reported formal actions included an administrative order
and a Federal Facility Compliance Agreement. Official informal enforcement actions included
15 Notices of Violation (NOVs). Given the small sample, we were not able to determine which
tools were most/least effective in maintaining compliance and bringing noncompliant facilities
into compliance. Examples of enforcement actions taken follow.




                                                5

   •	 The Naval Surface Warfare Center Indian Head facility was in SNC five times during
      the analysis timeframe. On February 28, 2003, EPA issued an NOV to the facility, and
      the facility responded on March 13, 2003. On October 24, 2005, EPA issued two NOVs
      resulting from a May 2004 EPA multimedia inspection. As outlined in an October 18,
      2006, EPA letter, citations from the 2004 multimedia inspection have been resolved.
      EPA is awaiting the new storm water pollution prevention plan.

   •	 The U.S. Marine Corps Base Quantico facility was in SNC three times during the
      analysis timeframe. Virginia issued 11 NOVs to the facility between 2002 and 2004 and
      an administrative consent order on July 10, 2003. Virginia believed the facility should
      not have been listed as being in SNC for the quarter ending September 2006. On
      October 6, 2006, Virginia issued an NOV to the facility. Virginia considered the
      violation to be resolved in March 2007.

   •	 The Washington Aqueduct facility was in SNC for 11 quarters during the analysis
       timeframe. EPA issued an NOV to the facility on October 9, 2002. EPA issued an
       administrative order the U.S. Army Corps of Engineers on June 12, 2003, for $70 million
       (the cost of the upgrades). EPA also entered into a Federal Facility Compliance
       Agreement with the Army Corps on June 12, 2003, to enable the development of a
       lengthy compliance schedule. The facility had a compliance schedule violation on
       June 3, 2005.

   •	 The Fort Indiantown Gap facility has been in SNC for the three quarters stretching from
      July 2005 to March 2006. The State did not issue a formal enforcement action to the
      facility because the facility was working to complete facility upgrades suggested by the
      State in 1997. The facility completed the upgrades in 2006 and current discharges
      comply with permit requirements.

Agency Response
We are not making any recommendations in this report, and both Region 3 and the Chesapeake
Bay Program Office declined to provide formal responses to the draft report.




                                              6

                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending;
     C = recommendation is closed with all agreed-to actions completed;
     U = recommendation is undecided with resolution efforts in progress




                                                                             7

                                                                                                                                               Appendix A

                          Federal Facility Significant Noncompliance by Quarter
                                                              (Fiscal Years 2000-2006)
                                                      2000              2001               2002            2003            2004            2005            2006

Facility Name              State    Permit #      1   2   3     4   1   2   3    4   1     2   3   4   1   2   3   4   1   2   3   4   1   2   3   4   1   2   3   4
Fort Detrick WWTP-
                             MD     MD0020877
Area C
Fort Indiantown Gap
                             PA     PA0028142
STP
Fort Meade WWTP              MD     MD0021717

Naval Surface Warfare        MD     MD0003158
Center - Indian Head
Naval Surface Warfare        MD     MD0020885
Center - Indian Head
U.S. Army Garrison –
                             MD     MD0021229
APG
US Marine Corps -
                             VA     VA0002151
MCB Quantico
US Marine Corps -
                             VA     VA0028363
MCB Quantico
US Navy - Naval Station
                             VA     VA0004421
Norfolk
Washington Aqueduct          DC     DC0000019

     Source: OIG analysis of EPA data

    Legend
  SNC                              Quarters – by Fiscal Year:                            Abbreviations:
                                   1: October – December                                 APG:    Aberdeen Proving Ground
 No SNC                            2: January – March                                    MCB: Marine Corps Base
                                   3: April – June                                       STP:   Sewage Treatment Plant
                                   4: July – September                                   WWTP: Waste Water Treatment Plant




                                                                                8

                                                                                 Appendix B

                          Pertinent Prior Reviews

                                         EPA OIG

•	 Saving the Chesapeake Bay Watershed Requires Better Coordination of Environmental and
   Agricultural Resources (2007-P-00004), November 20, 2006

•	 EPA Grants Supported Restoring the Chesapeake Bay (2006-P-00032), September 6, 2006

•	 Congressionally Requested Review of EPA Region 3’s Oversight of State National Pollutant
   Discharge Elimination System Permit Programs (2005-S-00002), October 29, 2004

                           U.S. Government Accountability Office

•	 Chesapeake Bay Program: Improved Strategies Are Needed to Better Assess, Report, and
   Manage Restoration Progress (GAO-06-96), October 2005

•	 Water Pollution: Stronger Enforcement Needed to Improve Compliance at Federal
   Facilities (GAO-RCED89-13), December 1988




                                              9

                                                                            Appendix C

                                      Distribution

Office of the Administrator
Regional Administrator, Region 3
Director, Chesapeake Bay Program Office
Assistant Administrator, Office of Water
Assistant Administrator, Office of Enforcement and Compliance Assurance
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Regional Operations
Audit Followup Coordinator, Region 3
Acting Inspector General




                                              10

